For Release on Delivery
Expected at
                          Statement Before the National
2:00 p.m. EDT
Thursday                  Commission on Terrorist
May 22, 2003
CC-2003-117               Attacks Upon the United States
                          on Aviation Security




                           Statement of
                           The Honorable Kenneth M. Mead
                           Inspector General
                           U.S. Department of Transportation
Chairman Kean, Vice Chairman Hamilton, and Members of the Commission:

We appreciate the opportunity to testify. The principal focus of our testimony is
the state of aviation security prior to September 11th, actions taken to improve
aviation security since that tragic day, and areas that still require attention. Our
testimony is based on audits and criminal investigative work spanning a number of
years covering a broad range of subjects—airline use of explosives detection
systems, security technologies, passenger and baggage screening, airport access
controls, and cargo security. Following the horror of the September 11th attacks,
we testified several times on these same subjects and, in doing so, highlighted
weaknesses in both the design and execution of the aviation security system in
place before September 11th. We believe aviation security will require continuous
improvement and vigilance.

As you know, the Federal Aviation Administration (FAA) had responsibility for
overseeing the security of the Nation’s aviation system prior to and immediately
following September 11th. That responsibility transferred to the Transportation
Security Administration (TSA) upon enactment of the Aviation and Transportation
Security Act (Act) in November 2001. As part of the largest reorganization of
Government since World War II, TSA, along with 21 other agencies, was
transferred to the Department of Homeland Security (DHS) on March 1, 2003.

It is important to note that aviation security is noticeably and demonstrably much
tighter now than before September 11th. During the 16 months after the passage of
the Act, at the direction and under the leadership of Secretary Mineta and the
Department of Transportation (DOT), much was accomplished to improve
aviation security. The aviation security system in place before September 11th had
undergone some incremental improvements over the years, such as deployment of
explosives detection machines, and probably provided a deterrent value to certain
types of threats. However, neither the system nor the model on which it was based
worked very well, and there were significant weaknesses in the protection it
provided—even for the type of threat the model was designed to prevent. As a
result, this model has undergone fundamental change.

Before September 11th, the aviation security model was mostly based on reacting
to known security threats instead of being proactive against potential threats. The
model, dating back to the early 1970’s, was implemented through a system of
shared responsibilities. Industry provided and paid for the security; FAA’s role
was to establish security requirements and ensure compliance with these
requirements.

Within the model were counter pressures to control security costs and limit the
impact of security on aviation operations, so that industry could concentrate on its


                                         1
primary mission of moving passengers seamlessly and safely through the system.
In our opinion, these counter pressures manifested themselves as significant
weaknesses in the security system that we and others repeatedly found during
audits and investigative work. Many of these weaknesses, even for the threats the
model was designed to prevent, existed for years, such as underutilization of bulk
explosives detection machines, lack of performance standards for screening
companies and their employees, inadequate controls to prevent unauthorized
access to secure areas of the airport, ineffective background investigation
requirements for employees working at the airport, and deficiencies in the cargo
security program. For example:

• Air carriers were required to screen passengers and their carry-on baggage but
  would typically award the screening contract to the lowest bidder. Employees
  of these screening companies typically received only the minimum required
  security training (15 hours) and usually received prevailing minimum wages—
  it was not unusual for the starting wages at airport fast-food restaurants to be
  higher than the wages screeners received. These conditions, along with others,
  resulted in screener turnover rates as high as 400 percent annually.

      Our 1996 report on efforts to improve airport security, and audits going back
      nearly a decade before this, found that screeners frequently failed to detect
      threat items—firearms and mock explosives—at security checkpoints.
      However, FAA never issued a final rule on the certification of screening
      companies to address the deficiencies in screening operations, even though the
      rule was required by the Federal Aviation Reauthorization Act of 1996. In
      early 1997, FAA issued an Advanced Notice of Proposed Rulemaking
      (ANPRM) on certification of screening companies. It was withdrawn in
      May 1998 and re-issued in January 2000. FAA was prepared to issue its final
      rule on the certification of screening companies the week of
      September 10, 2001.

• In 1998, we found that air carriers were significantly underutilizing explosives
  detection systems (EDS) already deployed and that continued low use would
  affect operator proficiency and prevent effective measurement of how
  dependable the equipment was in actual operations. Overriding reasons that
  EDS was underutilized were that air carriers were only required to use the
  machines to screen the baggage of passengers selected by Computer-Assisted
  Passenger Prescreening System (CAPPS)1 and the machine had a high false
  alarm rate. The requirement to screen only selectees’ bags addressed the air
1
    CAPPS is an automated passenger prescreening system that uses information in airline reservation
    systems to separate passengers into a very large majority who present no security risk, and a small
    minority (known as selectees) who merit additional attention, such as having their checked baggage
    screened using explosives detection systems.


                                                   2
   carriers’ concerns that screening more than selectees’ checked baggage would
   compound the delays air carriers were already experiencing in their operations.
   Therefore, equipment with a demonstrated ability to improve airport security
   often sat idle in airport lobbies.

• Criminal investigations we conducted before and after September 11th showed
  serious weaknesses in background checks of contract screener and airport
  workers. In October 2000, one of the Nation’s largest private security
  companies pled guilty and paid more than $1 million in fines and restitutions
  for falsifying criminal history checks and screener qualification records at one
  of the Nation’s largest airports. Before September 11th, little public attention
  was given to the seriousness of this issue.

   After September 11th, we participated in law enforcement sweeps at more than
   30 airports nationwide. The sweeps resulted in the indictment or arrest of more
   than 1,000 individuals who had falsified records about their identities, criminal
   histories, or immigration status and, as a result, obtained airport identification
   badges that allowed access to secure areas of the airport.

• For years, air carriers resisted implementing positive passenger bag match
  (PPBM) on domestic flights, stating that it would be too costly and bring the
  aviation system to a standstill. Yet after September 11th, when air carriers were
  given the option of implementing PPBM or other security procedures until
  sufficient EDS were installed, air carriers chose PPBM as the preferred option
  and the system was not brought to a halt.

After September 11th, the model was fundamentally changed by moving much of
the responsibility and cost for aviation security to the Federal Government. TSA
and the DOT moved forward in standing-up an entirely new organization. Most
noteworthy, TSA met the challenge to hire and train a federalized workforce to
screen all passengers and their carry-on baggage by November 19, 2002, and, for
the most part, to deploy the necessary equipment and federalized workforce to
meet the December 31, 2002 deadline to screen all checked baggage. This
required hiring and training a screener workforce of more than 60,000.

At the same time, TSA significantly expanded the Federal Air Marshals program
with more flights being guarded now than at any time in history, and air carriers
have strengthened cockpit doors. Also, more emphasis is being focused on
gathering, coordinating, and disseminating intelligence on homeland and
transportation security threats.

The new security model is much more likely to ensure strong aviation security
than its predecessor. It is based on powerful lessons learned. However, a


                                         3
cautionary note is in order. The sense of vigilance for and priority attached to
tight security can dissipate with the passage of time from a terrorist event; this, in
turn, may lead to a sense of complacency as well as pressures to relax security. To
guard against this and ensure continuous improvement, we believe emphasis on
the following will be of utmost importance: gathering intelligence information on
homeland and transportation security; integrating EDS into baggage handling
systems at the largest airports; investing in research and development for more
effective equipment for screening passengers, their baggage, and cargo;
implementing an aggressive covert testing program to evaluate operational
effectiveness of security systems and equipment; establishing screener
performance standards; and improving cargo security.

The foregoing must be accomplished in an environment that is cognizant of the
need to build tight security into the aviation system in a manner that allows for the
safe and efficient movement of aircraft and passengers. This is certain to be a
continuous challenge for both TSA and the aviation community.

The Aviation Security Model in Place Before September 11th Was a System
Geared Toward Reacting to Known Threats

Aviation security requirements were predicated largely on responding to threats
that had been experienced or thwarted and often were put in place
contemporaneously with or following a cycle of congressional or commission
hearings. For example:

• Screening checkpoint security came about as a direct result of a series of
  aircraft hijackings worldwide during the late 1960’s and early 1970’s. In the
  1970’s, the model was designed around a set of rules to prevent aircraft
  hijackings. In nearly all cases, firearms were the weapons of choice for
  hijacking the plane. FAA adopted policies requiring the use of metal detectors
  for screening all passengers and x-ray machines for screening the passengers’
  carry-on baggage.

• Airport access controls were further strengthened after the crash of Pacific
  Southwest Airlines Flight 1771 in 1987, where a PSA employee smuggled a
  firearm onboard the flight and fatally shot his supervisor, the pilot and copilot,
  causing the plane to crash. The crash investigation found that the PSA
  employee, who had been put on unpaid leave pending a theft investigation,
  purchased a ticket for the flight and used his airline employee credentials to
  bypass security. FAA adopted policy to require that all members of any airline
  flight crew be subjected to the same security measures as the passengers.




                                          4
• Checked baggage security was strengthened during the 1990’s, after the
  bombing of Pan Am Flight 103 over Lockerbie, Scotland, in December 1988,
  and a subsequent unsuccessful terrorist plot in 1995 involving U.S. carriers’
  outbound flights from the Philippines. Following the bombing of the Pan Am
  flight, FAA embarked on the development of equipment to screen checked
  baggage for explosives.

The security threats underlying the model and the assumptions on which that
model was based did not envision a scenario of commercial airliners being used as
a weapon, or the use of “box cutters” by individuals who were prepared to die in
the commission of their terrorist acts.

Within the Model There Were Counter Pressures to Control Security Costs
and Limit the Impact of Aviation Operations

FAA’s role did not include the direct provision of security; instead, FAA’s role
was to set guidelines; establish rules, regulations, policies and procedures; oversee
and enforce industry’s compliance with security requirements; and make
judgments on how to meet threats to aviation based on information from the
intelligence community. Air carriers were responsible for screening baggage,
passengers, and cargo, including hiring private screening companies and deciding
whether to actively participate in the deployment of EDS. Airport operators were
responsible for the airport perimeter and facility security, operating and
maintaining airport access control systems, and issuing airport identification.

Within this model, there were counter pressures to control security costs and limit
the impact of security on aviation operations, so that industry could concentrate on
its primary mission of moving passengers seamlessly and safely through the
system. These counter pressures manifested themselves as weaknesses in the
security system that we repeatedly found during our audits and investigative
work—even for the threats the model was designed to prevent. Many of these
weaknesses existed for years without permanent corrective actions. The following
are areas we noted during our audits and investigative work prior to
September 11th as needing immediate corrective action.

Security of Checked Baggage

EDS machines were developed to assist screeners in identifying threat items in
passengers’ checked baggage. In our 1998 report on Deployment of Explosives
Detection Equipment, we recommended that FAA develop a strategy to more
effectively utilize the EDS machines and enhance screener performance.
Overriding reasons that EDS was underutilized were that air carriers were only
required to use the machines to screen the baggage of passengers selected by

                                         5
CAPPS and the machine had a high false alarm rate. The requirement to screen
only selectees’ bags addressed the air carriers’ concerns that screening more than
selectees’ checked baggage would compound the delays air carriers were already
experiencing in their operations. Therefore, equipment with a demonstrated
ability to improve aviation security often sat idle in airport lobbies.

Congress passed the Aviation Security Improvement Act of 2000, which directed
FAA to maximize the use of explosives detection equipment. However, FAA and
TSA never utilized deployed EDS machines to the maximum extent possible until
the December 31, 2002 deadline. These machines cost about $1 million each plus
installation costs ranging from $300,000 to over $1 million. While the machines
are capable of screening 125 bags an hour, we routinely found the vast majority
were screening between 250 and 750 bags per day.

After numerous testimonies and reports, FAA took some action to increase
utilization of bulk explosives detection machines. However, the utilization goals
that FAA chose were too low. Bulk explosives detection machines in use have an
immediate, powerful, and visible deterrent effect on potential terrorist attacks.
One sitting idle does not.

Today, the operational landscape has changed, and what we found in the past—
EDS machines sitting idle when plenty of bags were available for screening—is no
longer the case.

Screening Checkpoint Security

Screening checkpoint operations have a long-standing history of system
ineffectiveness going back as far as 1987 when General Accounting Office (GAO)
investigators were able to successfully pass test weapons through screening
checkpoints. Air carriers were required to screen passengers and their carry-on
baggage, but would typically award the screening contract to the lowest bidder.
Employees of these screening companies typically received only the minimum
required security training (15 hours) and usually received prevailing minimum
wages—it was not unusual for the starting wages at airport fast-food restaurants to
be higher than the wages screeners received.

In our 1996 report on efforts to improve airport security, we found that screeners
frequently failed to detect threat items at security checkpoints. In a 2000 report,2
GAO found that long-standing problems combined to reduce screeners’
effectiveness in detecting dangerous objects. The most notable were (1) rapid
2
    Aviation Security: Long-Standing Problems Impair Airport Screeners’ Performance, Report Number
    GAO/RCED-00-75, dated June 2000.



                                                 6
turnover of screener personnel (as high as 400 percent annually), and (2) human
factors issues—repetitive tasks and the need for adequate training—that for years
affected screeners’ hiring, training, and working environment. GAO found that,
despite several laws enacted by Congress, concerns remained over screeners’
ability to detect dangerous objects. Furthermore, FAA acknowledged that
screeners’ detection of dangerous objects during testing was unsatisfactory and
was in need of improvement.

The Federal Aviation Reauthorization Act of 1996 directed FAA to certify
screening companies and improve screener performance. In early 1997, FAA
issued an Advanced Notice of Proposed Rulemaking (ANPRM) on certification of
screening companies; it was withdrawn in May 1998 and re-issued in
January 2000. FAA was prepared to issue its final rule on the certification of
screening companies the week of September 10, 2001. However, following the
September 11th tragedy, the DOT elected to delay publication of the final rule so
that the Rapid Response Teams could re-evaluate the certification requirements.

Threat image projection (TIP) was an important component of FAA’s final rule on
certification of screening companies. TIP is a software program installed on x-ray
machines being deployed at screening checkpoints at airports nationwide. TIP
exposes screeners to projected simulated threats on a regular basis to train them to
become more adept at detecting threats and to enhance their vigilance. In its final
rule, FAA planned to require that TIP be used to measure the performance of
individual screeners and screening companies. However, FAA never established
standards for measuring screener performance based on a combination of TIP
testing and actual field testing by FAA.

The Act required that TSA have in place a federalized workforce to screen all
passengers and their carry-on baggage by November 19, 2002. TSA implemented
standards for selecting and training its screener workforce, and is formalizing an
annual re-certification program for existing screeners. A prototype program is
scheduled to begin in June 2003.

Airport Access Controls

Controlling access to secure areas3 of the airport is critical in protecting the
airport’s infrastructure and aircraft from unauthorized individuals. During
late 1998 and early 1999, we successfully accessed secure areas in 68 percent of
our tests at eight major U.S. airports. Once we entered secure areas, we boarded

3
    OIG uses the term secure area to define the area of an airport where each person is required to display
    airport-approved identification. Each airport defines this area, which may be the entire Air Operations
    Area or may be limited to a smaller, more restrictive area.



                                                     7
aircraft 117 times. The majority of our aircraft boardings would not have occurred
if employees had taken the prescribed steps, such as making sure doors closed
behind them.

In addition to recommending that FAA work with airport operators and air carriers
to implement and strengthen existing controls to eliminate access control
weaknesses, we also recommended that comprehensive training programs be
developed that teach employees their role in airport security, and that airport
operators and air carriers make employees accountable for compliance. These
recommendations along with others were incorporated into the Airport Security
Improvement Act of 2000.

Conducting Background Investigations and Criminal History Checks

Our 2000 report on Controls Over Airport Identification Media4 looked at
industry’s compliance with FAA’s background investigation requirements at
six U.S. airports; we found that the requirements were ineffective, and that airport
operators, air carriers and airport users5 frequently did not comply with these
requirements.

Criminal investigations we conducted before September 11th also showed serious
weaknesses in industry’s compliance with background investigations and criminal
history checks. In October 2000, one of the Nation’s largest private security
companies pled guilty and paid more than $1 million in fines and restitutions for
falsifying criminal history checks and screener qualification records at one of the
Nation’s largest airports.

We made recommendations to FAA to strengthen background investigation
requirements to include initial and randomly recurring Federal Bureau of
Investigation (FBI) criminal checks for all employees; expand the list of crimes
that disqualify an individual from unescorted access to secure airport areas; and
incorporate in background investigation requirements the use of credit checks and
drug tests to help assess whether individuals can be trusted with the public’s safety
and be permitted to work in secure airport areas.

The Airport Security Improvement Act of 2000 incorporated some of our
recommendations and required FBI criminal checks at the Nation’s largest airports
as of December 2000. However, other airports were not scheduled to enter this
program until December 2003, even though FAA had stated the capacity to

4
    Report on Controls Over Airport Identification Media (Report Number AV-2001-010, December 7,
    2000).
5
    Airport users include foreign air carriers, non-air-carrier airport tenants, and companies that do not have
    offices at the airport, but require access to the secure airport areas.


                                                       8
process additional checks exists. We recommended that all airports be required,
immediately, to conduct criminal checks for all employees that have access to
secure airport areas, and for all screeners, including cargo screeners. Also,
criminal checks must not be restricted to first-time applicants, as the current law
provides, but should include all employees regardless of their employment date.
Further, criminal checks must be recurring.

Airport sweeps of illegal activities involving fraudulently obtained airport
identification have demonstrated the need to conduct both a background
investigation and a criminal history check before issuing airport identification.
After September 11th, we participated in law enforcement sweeps at more than
30 airports nationwide. The sweeps resulted in the indictment or arrest of more
than 1,000 individuals who had falsified records about their identities, criminal
histories, or immigration status and, as a result, obtained airport identification
badges that allowed access to secure areas of the airport.

Cargo Security

FAA’s Cargo Security Program was intended to address security risks and prevent
terrorist attacks on commercial passenger aircraft through air cargo. The Program
was guided by a primary principle—the terrorist does not want to be identified.
Unfortunately, the events of September 11th illustrated that this one principle can
no longer be relied on to deter terrorists who are willing to be identified and die in
the course of carrying out their mission. Therefore, new principles must be added
to better ensure the safety of the public.

In 1997, we advised FAA of the need to strengthen its approval procedures for
indirect air carriers6 and ensure compliance with cargo security requirements. In
September 2001, we briefed FAA on the results of our follow-up audit of FAA’s
Cargo Security Program. FAA has taken action to strengthen the program since
September 11th by no longer allowing air carriers to accept cargo from unknown
shippers and strengthening the requirements for becoming a known shipper—an
entity with an established shipping history. However, FAA did not take actions to
strengthen procedures for approving indirect air carriers to ship cargo on
passenger aircraft, and weaknesses continue in this area.

After September 11th, FAA took steps to strengthen cargo security, including
issuing security directives and an emergency amendment that prohibit air carriers
from accepting cargo from unknown shippers, and establishing additional
requirements for classifying shippers as “known.” However, the Program
6
    An indirect air carrier is any person or entity, excluding an air carrier that engages indirectly in the
    transportation of property by air, and uses the services of a passenger air carrier, such as a freight
    forwarder. This does not include the U.S. Postal Service.


                                                      9
continues to rely on the known shipper policy. The Aviation and Transportation
Security Act requires the screening of all cargo but did not set an implementation
date, and only a limited amount of cargo is currently screened. Cargo security
continues to receive close attention from Members of Congress, with several bills
being introduced to improve aviation cargo security.

Covert Testing

Industry’s implementation of established security requirements also left
considerable room for improvement; and FAA’s oversight, enforcement, and
regulation-issuing activities were often ineffectual in achieving permanent
improvement. We investigated allegations, brought by a former member of
FAA’s “Red Team,” that covert testing results were deliberately covered up by
FAA’s Office of Civil Aviation Security. The Red Team was a small, special
FAA Headquarters-based unit formed after the bombing of Pan Am Flight 103. Its
primary mission was to conduct covert testing of airport security operations
worldwide.

This covert testing was distinguished from FAA’s routine regulatory compliance
testing carried out by local FAA security field offices. Testing conducted by the
local field offices was subject to standardized FAA protocols that in our opinion,
were not comprehensive or realistic. For example, a typical test for a screener
would include a firearm or fake bomb placed inside a carry-on bag with little, if
any, clutter. The Red Team’s testing was a more rigorous and creative “out of the
box” approach to testing. The Red Team’s techniques were similar to those we
employed in conducting our covert testing.

While we did not substantiate that any deliberate cover-up occurred, we found that
FAA’s Red Team program suffered from inadequate agency follow-up action to
Red Team testing, despite consistently poor test results over time and the lack of
sustained improvement in security. We also found that once Red Team results
were forwarded to air carriers and shared with FAA field elements, there was no
follow-up communicated to the Red Team about any corrective actions resulting
from their tests. Based on our findings, we recommended that TSA incorporate a
number of key provisions in its successor program to FAA’s Red Team. Doing so
would translate the findings of TSA’s covert testing program, in a well-managed
manner, to substantive enhancements in key areas such as screener training,
screener performance/accountability measures, technology applications, and local
testing performed by TSA’s field regulatory element.

In November 2001, President Bush, Secretary Mineta, and Deputy Secretary
Jackson directed the Department of Transportation’s Office of Inspector General
to conduct undercover audits of security performance at airports nationwide, to


                                       10
evaluate the industry’s compliance with the then FAA security requirements. We
found areas with very high levels of compliance such as passenger prescreening,
the screening of selectee checked baggage, and not accepting small packages from
unknown shippers. However, despite the additional requirements mandated by
FAA following September 11th, there were areas where severe lapses in security
occurred, including screening of passengers and their carry-on bags at screening
checkpoints.

The New Security Model Is Not an End State and Requires Continuous
Improvement

The new security model is much more likely to ensure strong aviation security
than its predecessor. It is based on powerful lessons learned. However, a
cautionary note is in order. The sense of vigilance for and priority attached to
tight security can dissipate with the passage of time from a terrorist event; this, in
turn, may lead to a sense of complacency as well as pressures to relax security. To
guard against this and ensure continuous improvement, we believe emphasis on
the following will be of utmost importance.

Remain Proactive. More emphasis is being focused on gathering intelligence on
homeland and transportation security threats, and we have better coordination
among intelligence agencies. Those responsible for protecting the Nation’s
transportation systems must address potential threats as opposed to simply reacting
to known threats. In doing so, they must also ensure the flow of information from
the intelligence community beyond aviation to the surface transportation and
maritime sectors. TSA is extending its focus to these other sectors.

Move Forward on EDS Integration. TSA needs to move forward with
integrating EDS into baggage handling systems at the largest airports. Some
estimates put the cost of integrating the equipment upwards of $3 billion. For
example, at Boston Logan International Airport, integrating EDS into its baggage
handling system cost around $146 million. The ultimate cost of integrating EDS
at the largest airports will depend on the type of structural changes required in the
baggage make-up area, and the efficiency and reliability of the equipment. At this
point, it is unclear how long this integration will take, how much it will cost, and
who will have to pay for it. However, this integration is necessary to improve the
efficiency and effectiveness of the security system.

Strengthen Research and Development. It is clear that integrating EDS into the
baggage systems at the largest airports will not be the end state. The need to
deploy better, more effective equipment to meet current and future threats will be
an ongoing need for years to come. We must continue to invest in research and
development for more effective equipment for screening passengers, their carry-on


                                         11
and checked baggage, and air cargo. In the near term, TSA must develop and
implement the next generation computer-assisted passenger prescreening system
and transportation worker identification card program.

To the greatest extent practicable, TSA should test and evaluate promising security
products operationally, using pilot programs at a variety of different size airports
in several geographic and demographic areas, before committing large sums of
money to full-rate-of-production contracts. This is important because pilot
programs offer an opportunity to demonstrate clearly how the product will
perform in its intended environment when used by typical operators.

At the same time, we should be responsible in how we spend our research and
development funds. We found in our review of emerging security technologies
and our audits of TSA contracts and procurements that TSA has much work to do
to refine its deployment strategies and strengthen its procurement processes. In
doing so, TSA will be able to better identify its equipment needs and maximize the
Federal investment in security.

Carry Out Aggressive Covert Testing. An aggressive covert testing program
should be implemented to evaluate the operational effectiveness of security
systems and equipment. We understand that TSA has established such a program.
Based on our findings concerning FAA’s Red Team, TSA should ensure that it
follows through and takes action when problems are identified. Effective
implementation of the program will now be important and an area that warrants
regular oversight by Congress and the DHS Inspector General.

Establish and Enforce Screener Performance Standards. The human factor
has always been a “weak link” in aviation security. Since airport screeners are
now TSA employees, TSA realizes it needs to develop, field test, and implement
standards for measuring screener performance for various threat types using TIP
and live testing. TSA implemented standards for selecting and training its
screener workforce, and is formalizing an annual re-certification program for
existing screeners. A prototype program is scheduled to begin in June 2003. This
is particularly relevant since TSA is currently reducing the size of the screener
workforce, and it makes the most sense that TSA should be releasing the weakest
performers.

TSA must then execute a plan that includes comprehensive assessments and
aggressive realistic testing to evaluate screener performance (checked baggage
screeners and passenger and carry-on baggage screeners). This will help ensure
the quality of the screener workforce. Further, because there are five airports
under a pilot program using screening companies (which may later spread to more



                                        12
airports), TSA will need to ensure that it has a program in place to certify private
screening companies and their employees.

TSA should require air carriers, airport operators, and all other airport tenants to
develop and implement comprehensive initial and recurring training programs to
teach employees what their role in security is, the importance of their
participation, how their performance will be evaluated, and what action will be
taken if they fail to perform.

Improve Cargo Security. It is important for TSA to continue its efforts to
improve cargo security. This includes strengthening the approval and re-approval
process for indirect air carriers, and implementing a strategic plan to achieve the
goal of screening cargo and mail. The Aviation and Transportation Security Act
requires the screening of all cargo. One of the challenges facing TSA will be the
development and deployment of certified machines to screen cargo. These costs
may far exceed the costs to develop and deploy EDS.

That concludes my statement, Mr. Chairman. We have attached a listing of our
testimonies, reports and investigations completed prior to September 11th. I would
be pleased to address any questions you or other members of the Commission
might have.




                                        13
                                                                     Attachment
                                                                       (4 Pages)
             AVIATION SECURITY TESTIMONY AND REPORTS
                      AS OF SEPTEMBER 14, 2001

                                TESTIMONY
Date         Title                                                  Report Number
04/06/2000   Aviation Security                                      AV-2000-076
             Statement of Alexis Stefani, Assistant Inspector
             General for Auditing
             Before the Subcommittee on Aviation, Committee on
             Commerce, Science, and Transportation,
             U.S. Senate

03/16/2000   Aviation Security                                      AV-2000-070
             Statement of Alexis Stefani, Assistant Inspector
             General for Auditing
             Before the Subcommittee on Aviation, Committee on
             Transportation and Infrastructure,
             U.S. House of Representatives

03/01/2000   Improving Aviation Safety, Efficiency, and Security:   AV-2000-054
             FAA’s Fiscal Year 2001 Request for Research,
             Engineering, and Development
             Statement of Alexis Stefani, Assistant Inspector
             General for Auditing
             Before the Subcommittee on Technology, Committee
             on Science,
             U.S. House of Representatives

03/10/1999   Aviation Security                                      AV-1999-068
             Statement of Alexis Stefani, Deputy Assistant
             Inspector General for Aviation
             Before the Subcommittee on Transportation and
             Related Agencies,
             Committee on Appropriations,
             U.S. House of Representatives
05/14/1998   Aviation Security                                      AV-1998-134
             Statement of Alexis Stefani, Deputy Assistant
             Inspector General for Aviation
             Before the Subcommittee on Aviation,
             Committee on Transportation and
             Infrastructure,
             U.S. House of Representatives

                                      14
             AVIATION SECURITY TESTIMONY AND REPORTS
                      AS OF SEPTEMBER 14, 2001

                              AUDIT REPORTS

Date            Title                                               Report Number
12/07/2000      Controls Over Airport Identification Media          AV-2001-010

11/18/1999      Airport Access Control                              AV-2000-017

10/21/1999      Deployment of Explosives Detection Equipment        AV-2000-002

07/16/1999      Security of Checked Baggage on Flights Within the   AV-1999-113
                United States

10/05/1998      Deployment of Explosives Detection Systems          AV-1999-001

07/17/1998      Dangerous Goods/Cargo Security Program              AV-1998-178

06/01/1998      Management Advisory on Review of Security           AV-1998-149
                Controls Over Air Courier Shipments

04/17/1997      Federal Air Marshal Program                         R9-FA-7-006

07/03/1996      Efforts to Improve Airport Security                 R9-FA-6-014

09/20/1993      Audit of Airport Security                           R9-FA-3-105




                                      15
                  AVIATION SECURITY - INVESTIGATIONS
                  February 3, 1999 through September 14, 2001

  Subject Area             Date                           Summary
Screeners &         Sept. 14, 2001     Employees who are non-U.S. citizens without
Baggage                                proper INS status were authorized to enter
Handlers                               secured areas of Dulles, ongoing investigation.

Security Badges     Sept. 14, 2001     Arrest warrants were issued against non-U.S.
                                       citizens who obtained security badges at Miami
                                       International Airport.

Security Badges     Sept. 13, 2001     Employee at Miami International Airport pleads
                                       guilty to using job in ID section to make false
                                       security badges for coworkers.

Cockpit Access      June 7, 2001       Civilian used false FAA ID card to obtain
                                       unauthorized cockpit access on 3 separate
                                       flights.

Access Control      June 5, 2001       Non-employee of Miami International Airport
                                       illegally used an Airport Secured ID Display
                                       Area access badge to gain entry to a secured
                                       area.

Access Control      February 1, 2001   Miami International Airport employee gained
                                       access to secured areas by providing false data
                                       on Airport ID Badge application.

Screeners           October 25, 2000   Private firm (Argenbright) failed to conduct
                                       background checks on checkpoint screeners at
                                       Philadelphia Airport.          Company fined
                                       $1 million, $350,000 restitution and $200,00 in
                                       investigative costs.

Access Control      May 1, 2000        Employees at Dallas-Ft. Worth Airport allowed
                                       unauthorized personnel to use their security
                                       badges to gain access to secured areas.




                                       16
                 AVIATION SECURITY - INVESTIGATIONS
                 February 3, 1999 through September 14, 2001

  Subject Area           Date                               Summary
Screeners          March 27, 2000     Private firm (Aviation Safeguards) falsely
                                      certified on at least 70 occasions that criminal
                                      background checks had been accomplished on
                                      employees seeking access to secure areas at
                                      Miami International Airport.

Access Control     Feb. 3, 1999       Miami-Dade County Police Office falsely
                                      certified that criminal background checks had
                                      been accomplished on 22 employees seeking
                                      access to secure areas at Miami International
                                      Airport. Upon hiring, applicants had clearance
                                      to enter secured areas of the airport.




                                     17
